E-Mail Address:
contact@cocklelegalbriefs.com -

2311 Douglas Street
Omaha, Nebraska 68102-1214

EQCKIE

gal Briefs

Est. 1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850
No. 19-855
LENIN LUGO,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the REPLY BRIEF in the above
entitled case complies with the typeface requirement of Supreme Court Rule 33.1(b), being
prepared in New Century Schoolbook 12 point for the text and 10 point for the footnotes, and this
brief contains 2967 words, excluding the parts that are exempted by Supreme Court Rule 33.1(d),

as needed.

Subscribed and sworn to before me this 14th day of May, 2020.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

Leos Ondiw-h, Cha

Affiant 39827

    

GENERAL NOTARY-State of Nebraska
RENEE J. GOSS

My Comm. Exp. September 5, 2023

Notary Public
